                                            November 5, 2003




MEMORANDUM TO:               Chairman Diaz




FROM:                        Hubert T. Bell/RA/
                             Inspector General


SUBJECT:                     INSPECTOR GENERAL’S ASSESSMENT OF THE MOST
                             SERIOUS MANAGEMENT CHALLENGES FACING NRC
                             (OIG-04-A-01)

SUMMARY

On January 24, 2000, Congress enacted the Reports Consolidation Act of 2000 to provide
financial and performance management information in a more meaningful and useful format for
Congress, the President, and the public. Included in the act is the requirement that the
Inspector General of each Federal agency summarize what he or she considers to be the most
serious management and performance challenges facing the agency and assess the agency’s
progress in addressing those challenges. In accordance with the Reports Consolidation Act of
2000, I am submitting my annual assessment of the major management challenges confronting
the U.S. Nuclear Regulatory Commission (NRC). Also, included in my submission, is a listing
of Office of the Inspector General (OIG) reports issued during fiscal year 2003. These reports
address the challenges identified.

Congress left the determination and threshold of what constitutes a most serious management
challenge to the discretion of the Inspectors General. As a result, I applied the following
definition in preparing my statement:


          Serious management challenges are mission critical areas or programs that
          have the potential for a perennial weakness or vulnerability that, without
          substantial management attention, would seriously impact agency
          operations or strategic goals.


The most serious management challenges facing NRC may be, but are not necessarily, areas
that are problematic for the agency. The challenges, as identified, represent critical areas or
difficult tasks that warrant high-level management attention. This year, I identified nine
management challenges that I consider to be the most serious.
                      Inspector General’s Assessment of the Most Serious Management Challenges Facing NRC

DISCUSSION

The most serious management challenges that follow are not ranked in any order of
prominence.

 CHALLENGE 1
 Protection of nuclear material used for civilian purposes.


Over the past fiscal year, NRC has been overseeing the implementation of enhanced security
measures and determining the appropriate level of security needed to protect civilian nuclear
power facilities. The Chairman has stated that he intends for NRC to continue to work with the
Department of Homeland Security and other Federal agencies, as well as state and local law
enforcement and emergency planning officials, to ensure an integrated approach to protecting
these critical facilities.

NRC’s requirements for nuclear plant security are based on the need to protect the public from
exposure to radioactive release caused by acts of sabotage. Therefore, NRC has taken a
number of steps to strengthen security at NRC-licensed facilities. These measures include
issuing requirements to enhance training and address security personnel fatigue at nuclear
reactor sites to increase capability to detect and respond to threats. NRC also required plants
to enhance access controls to prevent unauthorized entry of persons to nuclear facilities. NRC
continues to work on revising the design basis threat (DBT) for nuclear power plants. The DBT
defines the threat against which these facilities must be capable of defending and provides a
foundation for developing defensive response strategies that cover a variety of situations.

NRC has made two organizational changes to further strengthen its security response
capabilities. In April 2002, NRC established the Office of Nuclear Security and Incident
Response (NSIR) to consolidate NRC’s security, safeguards, and incident response functions.
This office restarted security exercises at operating nuclear power reactor facilities, which had
been discontinued after September 11, 2001. The second organizational change made by the
Executive Director for Operations (EDO) in June 2003 established the position of Deputy
Executive Director for Homeland Protection and Preparedness. This new Deputy is responsible
for working across agency lines of authority to resolve homeland protection and preparedness
issues.

Related Office of the Inspector General Work

       Audits

       •        Audit of NRC’s Oversight of Research and Test Reactors
       •        Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
       •        Management Audits of NRC’s Four Regional Offices




                                                   2
                     Inspector General’s Assessment of the Most Serious Management Challenges Facing NRC

       Investigations

       •       Adequacy of NRC Oversight Related to Reactor Vessel Leakage at Oconee and
               North Anna Nuclear Power Stations
       •       NRC Enforcement of Regulatory Requirements and Commitments at Indian
               Point, Unit 2
       •       NRC’s Regulation of Davis-Besse Regarding Damage to the Reactor Vessel
               Head
       •       NRC’s Regulatory Oversight Over the Control of Special Nuclear Material at
               Millstone Unit 1

 CHALLENGE 2
 Protection of information.


NRC employees generate and work on a considerable amount of information that is sensitive
and needs to be protected. Such information can be sensitive unclassified information or
classified national security information and is contained in written documents and in electronic
databases. Recent OIG audits found that improvements were needed in the areas of
administrative procedures, information technology controls, and physical security controls.

NRC has made various efforts to protect sensitive information from inappropriate disclosure.
For example:

‚      Implementation of additional warning messages to the Agencywide Documents Access
       and Management System (ADAMS), NRC’s electronic recordkeeping system which
       houses vast quantities of agency information. These messages are intended to prevent
       the release of sensitive documents or packages by reminding staff when such
       information is not intended for public release.

‚      Addition of a sensitivity warning message at the bottom of every page on the agency's
       internal Web site to remind staff that sensitive information should not be made publicly
       available.

‚      Revision of agency sensitive unclassified information and classified information cover
       sheets to include specific information on the appropriate handling and marking of the
       various categories of information.

‚      Issuing orders to licensees for panoramic and underwater irradiators to improve
       security. These orders added a new document designation/marking to protect
       safeguards information. This designation (“Safeguards Information — Modified
       Handling”) is intended to clarify the handling requirements for safeguards information.

‚      Training provided by the Office of NSIR to all NRC employees on the handling of
       sensitive unclassified and classified information. In addition, NSIR offers a monthly
       refresher training course on the subject. Agency employees are also required annually
       to complete an online computer security awareness course.

                                                  3
                     Inspector General’s Assessment of the Most Serious Management Challenges Facing NRC

Related Office of the Inspector General Work

       Audits

       •        Computer Security Review at NRC’s Technical Training Center
       •        Computer Security Reviews at NRC’s Region I, II, III, and IV
       •        Independent Evaluation of NRC’s Implementation of the Federal Information
                Security Management Act for FY 2003
       •        Management Audits of NRC’s Four Regional Offices
       •        Review of NRC’s Handling and Marking of Sensitive Unclassified Information
       •        Use of E-Mail at NRC

 CHALLENGE 3
 Development and implementation of a risk-informed and performance-based
 regulatory oversight approach.


NRC faces numerous challenges in making its regulatory framework more risk-informed for
nuclear power plants and nuclear material licensees. In April 2000, NRC implemented the
Reactor Oversight Process (ROP) to move toward a more risk-informed regulatory philosophy
that enhances safety decisionmaking, improves efficiency, and reduces resources devoted to
issues with low safety significance. The ROP relies on a risk-informed inspection program to
provide increased focus on specific aspects of plant performance that have the greatest impact
on safe plant operation. The process focuses on seven specific cornerstones of safety:
initiating events, mitigating systems, barrier integrity, emergency preparedness, public radiation
safety, occupational radiation safety, and physical protection. The premise is that safety is
maintained if the licensee performs acceptably in these cornerstones.

NRC is currently working to further its risk-informed approach by revising its nuclear plant
regulations developed to ensure safe plant operations. To make the regulations more risk-
informed, NRC needs to analyze the risks associated with any area subject to regulation to
determine the appropriate level of regulatory emphasis. According to the agency, this approach
will result in regulations that are more safety-focused and performance-based by focusing
oversight on results rather than on prescriptive requirements.

NRC is also currently working to risk-inform its approach to regulating nuclear materials and
waste. According to the EDO, the implementation of a risk-informed approach to this area has
led to an improved focus on safety and a reduction of unnecessary regulatory burden. The
EDO maintains that the agency has successfully used the risk-informed approach to improve
efficiency and effectiveness while maintaining safety in several areas. These changes include
the integrated safety analysis review, byproduct materials inspections, and spent nuclear fuel
transportation and storage. There also is an ongoing agency effort to examine the materials
licensing and certification programs to identify opportunities for improvement.

According to the NRC Chairman, NRC has made progress over the past 10 years in
implementing risk-informed regulation, however, the agency still has a long way to go to fully


                                                  4
                     Inspector General’s Assessment of the Most Serious Management Challenges Facing NRC

implement the process. He anticipates that risk-informed regulation will continue to be a major
area of focus for NRC.

Related Office of the Inspector General Work

       Audits

       •        Audit of NRC’s Oversight of Research and Test Reactors
       •        Management Audits of NRC’s Four Regional Offices

       Investigations

       •        Improper Influence by NRC Staff on Results of NIST Test
       •        NRC Regulation of Davis-Besse Regarding Damage to the Reactor Vessel Head

 CHALLENGE 4
 Ability to modify regulatory processes to meet changing external demands.


NRC faces numerous challenges related to the changing regulatory and business environment.
The increased demand for electric power has created challenges pertaining to such areas as
reactor license renewals, license amendment requests to increase reactor power output, new
plant designs, and high-level waste disposal. The agency is also striving to ensure its
readiness to deal with applications for new plants.

Reactor License Renewal

The improved performance of nuclear power plants over the past decade has caused many of
NRC’s licensees to consider renewing their licenses rather than decommissioning their plants
when the licenses expire. Approximately half of the operating nuclear reactor units in the U.S.
are currently involved in some stage of the license renewal process. To regulate this activity,
NRC established a license renewal inspection program to verify information submitted in the
renewal applications. This program also includes an agency safety evaluation and
environmental impact analysis.

Applications To Increase Power Output

As of April 2003, NRC had completed reviews of 92 requests from licensees to increase reactor
power output. NRC staff estimate that over the next 5 years, NRC will receive an additional 35
such requests. These requests involve complex, technical issues and NRC’s review of the
application to ensure safe operation. NRC considers the request as a high priority that requires
input from many technical areas of the agency. A number of these reviews have been
completed more quickly than the agency’s estimate of 18 months needed to accomplish the
task.




                                                  5
                      Inspector General’s Assessment of the Most Serious Management Challenges Facing NRC

New Plant Designs

New proposals for nuclear power plant design are emerging with the maturation of the nuclear
power industry. Numerous reactor designs have been submitted for NRC review; three are
being actively pursued at this time. According to the EDO, the staff is making infrastructure
improvements to ensure that tools, information, and regulatory processes are in place for the
efficient, effective, and realistic review of these applications and to ensure that an appropriate
level of safety is maintained.

High-Level Waste

According to the Nuclear Waste Policy Act, the Department of Energy (DOE) has the
responsibility to locate, build, and operate a repository for high level nuclear waste, while NRC
has the responsibility to establish regulations over this facility. NRC expects to receive an
application next year from DOE for a permit to construct a permanent repository for high-level
waste at Yucca Mountain in Nevada and has begun review preparations. NRC anticipates that
the administrative proceeding to assess the repository will be an enormous undertaking
because many documents will need review in a 3-year time frame. One significant challenge
for NRC is ensuring that all parties and decisionmakers have timely access to filings and
exhibits.

Related Office of the Inspector General Work

       Audits

       •        Management Audits of NRC’s Four Regional Offices

       Investigations

       •        Unlawful Interaction Between NRC and DOE Staffs Regarding Yucca Mountain

 CHALLENGE 5
 Acquisition and implementation of information resources.


Federal agencies’ acquisition and implementation of information resources are crucial to (1)
support critical mission-related operations and (2) provide more effective and cost-efficient
Government services to the public. The necessary link of information technology to NRC’s
mission performance makes it important to have decisionmaking processes assure that funds
are invested and managed to achieve high value outcomes at acceptable costs. NRC relies on
a wide variety of information systems to help it fulfill its responsibilities and support its business
flow. NRC, like other Federal agencies, continues to struggle in its effort to obtain a good
return on these investments. In recent years, NRC has created large databases of publicly
available information including ADAMS, the Licensing Support Network (LSN), and the NRC
Web site. NRC also has issued a final rule to clarify when and how external stakeholders may
use electronic means to communicate with the agency.


                                                   6
                     Inspector General’s Assessment of the Most Serious Management Challenges Facing NRC

ADAMS

ADAMS, an NRC electronic recordkeeping system, maintains official records of the agency.
Implemented in April 2000, the system continues to pose concerns for NRC. In January 2003,
NRC modified the public’s ability to access ADAMS by instituting a Web-based interface with
search capabilities. According to the agency’s Chief Information Officer, this new Web-based
interface is a significant step forward in NRC’s efforts to support the Governmentwide electronic
Government (E-Gov) initiative. NRC also implemented the ADAMS Legacy and Public Legacy
Libraries, which contain more than 2 million bibliographic citations describing documents dated
prior to November 1, 1999.

LSN

NRC’s LSN is a public database developed in response to a congressional mandate that NRC
assess DOE’s application to build a high-level radioactive waste repository at Yucca Mountain
in a 3-year time frame. To expedite the exchange of documents in NRC’s licensing proceeding,
the parties will make their documents available via the Internet before the DOE license
application is submitted to NRC. The LSN provides a single place where the parties can search
for documents from any/all of those collections in a uniform way. The challenge facing NRC
will be to ensure that all potential parties have reliable access to this large database of
documents.

Internal Web Site

NRC redesigned its internal Web site to improve delivery of information. Changes include links
to Network Announcements issued to staff from the agency and a comprehensive agency
telephone directory.

E-Rule

NRC is issuing its final rule, “Electronic Maintenance and Submission of Information” (E-rule),
and a related guidance document. These documents clarify when and how licensees,
applicants, vendors, external entities, and other members of the public may use electronic
means to communicate with the agency. The rule, expected to become effective in January
2004, modifies numerous provisions in NRC’s regulations to allow for voluntary electronic
submission of documents in lieu of paper. The guidance document includes the required
procedures for corresponding with NRC by CD-ROM, e-mail, facsimile (fax), or by using the
agency’s Electronic Information Exchange to exchange electronic documents in a secure
manner and in a secure Web environment.

The E-rule provides NRC with an opportunity to modernize its business processes to improve
technology. For example, the E-rule eliminates most of the paper and multiple copy
requirements traditionally imposed on individuals submitting information and will allow
submitters to provide one copy in most cases. In addition, the guidance document requires that
electronic files be submitted in Portable Document Format (PDF) and that very large files be
submitted in segments so that they can be more easily captured in ADAMS and viewed and
downloaded by the public via the Internet.

                                                  7
                     Inspector General’s Assessment of the Most Serious Management Challenges Facing NRC

Related Office of the Inspector General Work

       Audits

       •        Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
       •        Follow-up Review of NRC’s Internet Usage
       •        Independent Evaluation of NRC’s Implementation of the Federal Information
                Security Management Act for FY 2003
       •        Management Audits of NRC’s Four Regional Offices
       •        Use of E-mail at NRC

       Investigations

       •        Misuse of NRC Computers to Access Inappropriate Material

 CHALLENGE 6
 Administration of all aspects of financial management.


NRC must be a prudent steward of its fiscal resources through sound financial management.
Sound financial management includes the production of timely, useful, and reliable financial
information to support agency management; an effective cost accounting system; well-
developed strategic planning; and an integrated method for planning, budgeting, and assessing
performance to better enable NRC to align programs with outcomes. Sound financial
management also includes how an agency procures goods and services. Procurements must
be made in accordance with Federal regulations and with an aim to achieve the best value for
the agency’s dollars. Without effective management controls, the procurement process is
susceptible to fraud, waste, and abuse.

FY 2002 was the ninth consecutive year for which NRC received an unqualified audit opinion on
its financial statements. The FY 2002 Independent Auditors’ Report on Management’s
Assertion about the Effectiveness of Internal Control disclosed that four reportable conditions
were carried forward into FY 2003, and that two prior years’ reportable conditions were closed.
One of the reportable conditions that was carried forward to FY 2003, which is also a material
weakness, relates to the lack of full compliance with the Statement of Federal Financial
Accounting Standards No. 4, Managerial Cost Accounting Concepts and Standards. Significant
progress continues to tighten controls over financial management processes. For example,
NRC hired a consulting firm to assist the agency to more fully address the challenges
associated with managerial cost accounting.

Related Office of the Inspector General Work

       Audits

       •        Audit of NRC’s Fiscal Year 2002 Financial Statements
       •        Independent Auditor’s Report - Close-Out Audit of GSE Power Systems, Inc.
       •        Management Audits of NRC’s Four Regional Offices

                                                  8
                     Inspector General’s Assessment of the Most Serious Management Challenges Facing NRC

       •       Review of NRC’s Implementation of the Federal Managers’ Financial Integrity
               Act for Fiscal Year 2002
       •       Review of NRC’s Purchase Order Processing

       Investigations

       •       Early Retirement Under False Pretenses
       •       Fraudulent Travel Claim by NRC Employee
       •       Misuse of NRC Full Share (Transportation Subsidy) Program

 CHALLENGE 7
 Communication with external stakeholders throughout NRC regulatory activities.


To maintain public trust and confidence, NRC must be viewed as an independent, open,
efficient, clear, and reliable regulator. To this end, the agency needs to provide its diverse
group of external stakeholders (e.g., the Congress, general public, other Federal agencies,
industry, and citizen groups) with clear, accurate, and timely information about, and a
meaningful role in, NRC’s regulatory process. This is a challenging task because of the highly
technical nature of NRC’s operations, the sensitivity of its information, and the balance the
agency must maintain to remain independent.

NRC has a strategic goal to increase public confidence, yet the agency has not developed a
method to measure its success in this area. The challenge for NRC is to afford all
stakeholders, including the public, with appropriate and meaningful access to its regulatory
process. This access must be provided in a committed, stipulated, consistent, timely, and
unambiguous manner that fosters confidence in the agency. At the same time, the agency is
also faced with the responsibility of protecting sensitive security and safeguards information
from unauthorized access.

In June 2003, the Chairman created a task force to develop strategies for comprehensive and
effective communications with external stakeholders. An August 2003 task force report stated
that there must be clear demonstration of NRC’s values in everything NRC communicates and
does. The task force determined that NRC’s effectiveness in communicating with its
stakeholders varies and that while, in many cases, the agency is communicating reasonably
well with its stakeholders, there is room for significant improvement. The task force made 10
recommendations to NRC to improve its external communications.

To provide integrated leadership and direction for external communications, the Chairman
established the position of Director of Communications, to report directly to his office. The
Communications Director is responsible for enhancing the effectiveness of NRC’s
communications with the public, the media, and the Congress in support of the agency’s
strategic goals.

NRC also implemented a strategy to enhance public participation through the three types of
NRC meetings open to the public. Category 1 meetings invite the public to observe the
business portion of the meeting. Members of the public are afforded an opportunity to

                                                  9
                      Inspector General’s Assessment of the Most Serious Management Challenges Facing NRC

communicate with NRC after the business portion of the meeting. Category 2 and 3 meetings
allow more opportunities for the public to ask questions and comment. NRC officials created a
page on its external Web site which provides information on these three categories as well as
public meeting feedback forms. The officials also created a public meeting checklist to provide
staff with the guidance and the tools to plan and conduct successful public meetings.

Related Office of the Inspector General Work

       Audits

       •        Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
       •        Management Audits of NRC’s Four Regional Offices

       Investigations

       •        Unlawful Interaction Between NRC and DOE Staffs Regarding Yucca Mountain

 CHALLENGE 8
 Intra-agency communication (up, down, and across organizational lines).


Internal communication is a fundamental and necessary aspect of conducting agency business.
NRC needs effective internal communication channels and methods to support its critical health
and safety mission. Information is the key resource that links managers with staff, the
organization, and other internal stakeholders, enabling them to do their work cooperatively and
efficiently in a coordinated manner. According to the Chairman, effective internal
communication is essential for improving NRC’s performance as a regulatory body. Results
from OIG’s Safety Culture and Climate Survey, issued agencywide in December 2002, showed
that a majority of NRC employees believe the agency has not established a climate where
traditional ways of doing things can be challenged or innovative ideas can fail without penalty.

NRC has implemented various actions to improve its internal communications over the past
year. In response to the Safety Culture and Climate Survey findings, NRC established a safety
culture and climate task force to work on improving communications internally. This task force
issued a report with recommendations to the agency on how to address communications
issues. The agency continues to use the electronic “EDO Updates,” a type of communication
between the EDO and the entire staff. NRC also recently redesigned its internal Web site to
facilitate information access and service delivery. In addition, NRC continues to use the All
Employees Meeting as an important and effective tool for direct two-way communication
between the Commission and agency employees. NRC’s draft strategic plan also addresses
the importance of internal communication on achieving the agency’s mission and performance
goals.




                                                  10
                     Inspector General’s Assessment of the Most Serious Management Challenges Facing NRC

Related Office of the Inspector General Work

       Audits

       •        Follow-up Review of NRC’s Internet Usage
       •        Management Audits of NRC’s Four Regional Offices
       •        OIG’s 2002 Survey of NRC’s Safety Culture and Climate

 CHALLENGE 9
 Managing human capital.


NRC must have a dynamic, diverse workforce with the appropriate knowledge, skills, and
abilities to achieve its public health and safety mission. NRC has identified human capital
management as a major challenge and a potential high-risk area. The demands include
declining workforce numbers, institutional knowledge, and critical skills; new workforce
demographic trends (e.g., aging workforce); and increasing market competition for a shrinking
labor pool. Thirty percent of the Federal workforce will be eligible to retire in 5 years and an
additional 20 percent could seek early retirement. This does not mean that 50 percent of
Government employees will retire in the short-term, but that agencies must start planning for
the workforce in the future.

The Office of Human Resources (HR) developed an agencywide set of strategic human capital
management initiatives to mitigate the expected loss of personnel with the technical
competencies necessary to sustain the accomplishment of NRC mission requirements. Some
of these initiatives include early replacement hiring, recruitment bonuses, undergraduate
fellowship programs, and the Senior Executive Service candidate development program. NRC
also strives to ensure that 20 percent of new employees are hired into entry level positions.
NRC also recently designated a Chief Human Capital Officer to advise and assist with NRC’s
workforce planning.

HR and the program offices are working together to identify where gaps will exist and develop
strategies, such as increased recruiting efforts and training budgets, that will maintain the
offices’ core scientific and technical capacities. NRC has also created a program that
emphasizes the core skills, or competencies, related to supervising and managing staff. With
these efforts, NRC believes that it will successfully identify its critical skill needs and hire,
develop, motivate, and retain the employees who possess the skills needed to support the
agency’s strategic goals and outcomes.

Related Office of the Inspector General Work

       Audits

       •        Management Audits of NRC’s Four Regional Offices




                                                 11
                     Inspector General’s Assessment of the Most Serious Management Challenges Facing NRC

CONCLUSION

One of OIG’s strategic goals is to identify opportunities for improvement in NRC’s programs,
operations, and corporate management. The Inspector General’s identification of the most
serious management challenges facing the agency and the work of the OIG staff helps achieve
this goal. Furthermore, as evidenced by this review, the agency has already taken some steps
to address the management challenges.

While the nine challenges identified in this report are distinct, they are also interdependent. By
continuing to address these challenges through planning and in day-to-day operations, NRC
can further enhance its efforts to successfully meet its public health and safety mission. To
emphasize the importance I place on these concerns for the agency, I have prepared and
distributed to all employees a pocket-sized card listing these major NRC management
challenges.

cc:    Commissioner McGaffigan
       Commissioner Merrifield




                                                 12
Report Distribution

      R. McOsker, OCM/RAM
      B. Torres, ACMUI
      B.J. Garrick, ACNW
      M. Bonaca, ACRS
      J. Larkins, ACRS/ACNW
      P. Bollwerk III, ASLBP
      K. Cyr, OGC
      J. Cordes, OCAA
      W. Travers, EDO
      W. Dean, OEDO
      E. Merschoff, CIO
      J. Funches, CFO
      P. Rabideau, Deputy CFO
      J. Dunn Lee, OIP
      D. Rathbun, OCA
      W. Beecher, OPA
      A. Vietti-Cook, SECY
      W. Kane, DEDH/OEDO
      C. Paperiello, DEDMRS/OEDO
      P. Norry, DEDM/OEDO
      M. Springer, ADM
      J. Dyer, NRR
      G. Caputo, OI
      P. Bird, HR
      C. Kelley, SBCR
      M. Virgilio, NMSS
      S. Collins, DEDR
      A. Thadani, RES
      P. Lohaus, STP
      F. Congel, OE
      M. Federline, NMSS
      R. Zimmerman, NSIR
      R. Wessman, IRO
      H. Miller, RI
      L. Reyes, RII
      J. Caldwell, RIII
      B. Mallett RIV
      OPA-RI
      OPA-RII
      OPA-RIII
      OPA-RIV




                                   13
